      LEGAL SERVICES CORPORATION
      OFFICE OF INSPECTOR GENERAL




       AUDIT OF GRANTEE'S
  PRIVATE ATTORNEY INVOLVEMENT
             PROGRAM




Grantee:   Western Michigan Legal Services

              Recipient No. 423141

               Report No. AU04-07

                 AUGUST 2004
                                                                        Legal Services Corporation
                                                                        Office of Inspector General




                                                August 27,2004


Mr. Michael C. Chielens
Executive Director
Western Michigan Legal Services
89 lonia, NW, Suite 400
Grand Rapids, Mi. 49503

Dear Mr. Chielens:

Enclosed is our final audit report on Western Michigan Legal Services'
compliance with private attorney involvement (PAI) requirements of 45 CFR Part
1614. Your comments on the draft report are included as Appendix I. We
modified the report to correct the erroneous references identified in your
comments. The final report includes one recommendation.

Your response to the draft report indicates that you have begun to implement the
recommendation for follow-up on open PA1 cases. However, we recommend that
you increase the frequency of such follow-ups from six months to a minimum of
quarterly. Please provide us with a plan within 30 days of the date of this letter.

A copy of this report is also being sent to the Chair of the Board of Directors of
your program and to LSC management.

Thank you and all your staff for the cooperation and courtesy extended to the
OIG auditors. If you have any questions about the report, please contact
David L. Gellman at 202-295-1665 or me at 202-295-1651.




                                                Leonard J. KO&
                                                Acting lnspector General

Enclosure

cc:   Leaal Services Cor~oration
      John Eidleman
      Michael Genz

                                                                       3333 K Street, NW, 3rd Floor
                                                                       Washmgton, DC 20007-3522
                                                                       Ph: 202.295.1500 Fax: 202.337.6616
                                                                       www.oig.lsc.gov
      LEGAL SERVICES CORPORATION
      OFFICE OF INSPECTOR GENERAL



       AUDIT OF GRANTEE'S
  PRIVATE ATTORNEY INVOLVEMENT
                PROGRAM




Grantee:   Western Michigan Legal Services

              Recipient No. 423141

               Report No. AU04-07

                 AUGUST 2004
                                      TABLE OF CONTENTS

                                                                                                                   Page

RESULTS OF AUDIT..........................................................................................1

         RECOMMENDATION ...............................................................................1

BACKGROUND               ..................................................................................................I
OBJECTIVES. SCOPE and METHODOLOGY                                     ................................................... 3
SUMMARY OF GRANTEE'S COMMENTS ON DRAFT REPORT AND OIG'S
RESPONSE ..........................................................................................................4

APPENDIX I .Grantee Comments (RESERVED) ......................................... I 1                                 .
APPENDIX II .OIG On-Site Audit Team ....................................................... II .2
                             RESULTS OF AUDIT

The Legal Services Corporation (LSC), Office of Inspector General (OIG)
conducted this audit to evaluate Western Michigan Legal Services (WMLS)
(grantee) compliance with the Private Attorney Involvement (PAI) regulations (45
CFR 1614). This regulation requires the grantee to spend an amount equal to at
least 12.5 percent of its basic field grant to involve private attorneys in providing
legal services to clients. Grantees are to provide LSC statistics on the private
attorneys involved and the programs must operate efficiently and effectively.

The grantee generally complied with the requirements of 45 CFR 1614 and
related statistical reporting requirements, except the grantee did not document
adequate oversight and follow-up for cases referred to private attorneys by the
Grand Rapids office as required by section (1614.3(d)(3)). The Kalamazoo
Branch Office provided adequate oversight and follow-up, including complete
documentation.

Three out of ten cases tested in Grand Rapids had neither documentation of
follow-up letters nor telephone calls for more than six months. Two of these
cases were misclassified as PA1 since they were handled by grantee staff after
initial referral to private attorneys. One of these cases should have been closed.
In addition, most of the follow-up documentation for the other seven cases was
recorded on post-it papers attached to the files. This type of recordkeeping is
subject to loss. Incomplete documentation could result in inadequate follow-up.


RECOMMENDATION

We recommend that the Executive Director

   1.     Establish procedures requiring the Pro Bono Coordinator to formally
          document PA1 files with memoranda or letters indicating the substance
          and dates of follow-up with the private attorneys.


                                   BACKGROUND

Western Michigan Legal Services is a nonprofit corporation established to
provide legal services to indigent persons who meet applicable eligibility
requirements. This grantee is headquartered in Grand Rapids, Michigan with
branch offices in Big Rapids, Muskegon, Holland, Kalamazoo, St. Joe and Niles.
The PA1 program is coordinated by a Pro Bono Coordinator (PBC) in Grand
Rapids. There is one paralegal in St. Joe and an administrative assistant in
Kalamazoo who assist in coordinating the pro bono program. Most of the closed
cases reported for 2003 were for Grand Rapids Office (171) with only two branch
offices reporting more than a few cases-Kalamazoo (26) and St. Joe (17).

WMLS reported expenditures of $252,236 (all LSC funds) for 2003 to meet the
PA1 requirement. This amounted to 15.8 percent of the annualized basic field
grant of $1,600,045. Of the total PA1 expenditures reported, WMLS reported
$220,189 for staff salaries and benefits. The $18,488 for indirect charges such
as rent, equipment and other office expenses were allocated based on PA1 staff
salaries. WMLS charged $13,098 to PA1 for postage, printing and litigation
expenses (process servers and court reporters).

The Executive Director (ED) and the PBC affirmed that the focus of the WMLS
PA1 program was family law (51 percent) and consumer-bankruptcy law
(21 percent) with a high percentage of extended service cases (78 percent for
2003). By contrast, most of the public benefitJassistance and landlordltenant
cases were assigned to staff attorneys. The ED and PBC stated that cases
requiring immediate assistance and within program priorities were usually
assigned to staff attorneys.

The ED and PBC stated that most of their pro bono attorneys were from the
larger law firms in the Grand Rapids area. Further, the ED and PBC reported
that it was difficult to recruit pro bono attorneys in the more rural areas outside
Grand Rapids because most of those attorneys were not affiliated with large law
firms, having more limited income and limited time available. The ED and PBC
reported that they believed their PA1 program was operating effectively,
particularly considering the high number of hours contributed in handling a large
number of extended service cases. In addition, WMLS receives about $200,000
per year in additional funding from private attorneys, which WMLS believes is
due to the state bar's encouragement of attorneys to make financial contributions
in lieu of or addition to providing pro bono services.

The ED and PBC reported that the state bar was very active in encouraging and
coordinating pro bono programs. This included providing training for pro bono
attorneys and running pro se clinics. WMLS actively supports the state bar
programs by participating on the Standing Pro Bono Committee of the state bar.
WMLS also provides a staff attorney for approximately ten hours per week to
assist at the legal assistance center in Grand Rapids, a project of the Grand
Rapids Bar Association.
The purpose of the audit was to evaluate compliance with requirements
established in 45 CFR 1614, relating to private attorney involvement (PAI),
including effectiveness and efficiency of PA1 programs (Sec. 1614.1(c)). The on-
site portion of this audit was performed from May 17, 2004 to May 19, 2004. This
audit is part of a series of audits of PA1 the OIG will conduct at a representative
number of LSC grantees to identify systemic weaknesses as well as "best
practices." The audit was performed in accordance with Generally Accepted
Government Audit Standards.

The audit covered the period from January 1,2003, through December 31,2003.
The OIG reviewed grant applications, audited financial statements and statistical
data reported. The OIG interviewed the Executive Director, the Pro Bono
Coordinator, the Business Manager and the Bookkeeper at the headquarters
office in Grand Rapids. In addition, the OIG interviewed the Deputy Director and
the paralegal at the Kalamazoo branch office. The OIG performed the following
specific tests:

      Planning - Reviewed and evaluated the grant application for 2002.
      lnterviewed Office of Performance and Planning and the Office of
      Compliance and Enforcement staffs to obtain background on prior reviews
      and evaluations. lnterviewed the Executive Director and Pro Bono
      Coordinator to evaluate planning for prioritizing legal needs and for
      obtaining feedback from community organizations and clients on PA1 legal
      services provided.

      Statistics - Traced statistical reports (Case Statistical Reports) to closed-
      case listings for PA1 cases. Tested samples of cases for each of the two
      offices where PA1 cases were reported to verify existence, LSC eligibility,
      type of case and level of service. Tested the accuracy of data reported on
      the J-I Report-Components of PA1 by tracing the data to supporting
      documentation.

      Accounting - Reviewed and evaluated the grantees audited financial
      statements for 2003. Tested a sample of direct PA1 disbursements, tracing
      expenditures to source documentation submitted by vendors and
      evaluating relevance to the PA1 program. Compared a listing of individuals
      who had terminated employment with the grantee in the past two years to
      verify compliance with the prohibition on paying these former employees,
      including reduced-fee contracts for PAI. Evaluated the reasonableness of
      time charged to PA1 by grantee employees, related indirect costs and
      internal controls over accounting for PAI.
4. Oversight - Reviewed self-inspections for 2003. Tested samples of open
   and/or recently-closed cases to evaluate the timeliness of follow-up and
   case closure.

5. Productivity - Evaluated statistical and accounting data to assess the
   productivity of the grantee's overall PA1 program by comparing this data to
   national averages. Compared productivity between the PA1 programs at
   the grantee's two offices.



   SUMMARY OF GRANTEE'S COMMENTS ON DRAFT REPORT AND
                  THE OIG'S RESPONSE


GRANTEE COMMENT-OVERSIGHT AND FOLLOWUP

The grantee agreed to document follow up with pro bono attorneys by
contacting a certain percentage of the open pro bono cases with the goal of
reaching each private attorney every six months.

OIG RESPONSE

The OIG recommends that the frequency of follow-up with pro bono attorneys
on open cases should be at least quarterly.
                                                                                      APPENDIX I



          WESTERN MICHIGAN LEGAT, SERVICES
                                              Kent    lonia
                                                          Montcalm
                             89 lonia, N. W    SU&    460 Grand Rapids. MI 49503
                                           Telephone: 16161 774-0672                 FAX: (616) 774-2412
                                           website: www.wmichls.org

                                      MIU-WL C. CHIELENS, E X € W l l E iHECTW



     August 17,2004



     Leonard J . Koczur
     Legal Services Corporation
     Office of Inspector General
     3333 K Street NW 3d Floor
     Washington, DC 20007

     Dear Mr. Koczur:

     This letter is in response to the draft report of the PA1 audit of Western Michigan Legal
     Services dated August 6,2004.

     I would like to thank you for the opportunity to meet with Mr. Gellman and Mr. Ortunio.
     They conducted themselves professionally and I believe the audit went as smoothly for
     them as it did for us. Iam looking forward to the release of the final report.

     In regards to the one recommendation, I can tell you that we have already begun to
     implement it as a program procedure. The PBC and the assistants in the other offices
     will document the follow-up with private attorneys in our PIKA case management
     system. In fact, Paul Abrahamsen, our PBC, has already begun to document the
     contacts in that manner. We have discussed how best to pursue the follow-up and we
     most likely will contact a certain percentage of the open pro bono files on a monthly
     basis with a goal of reaching each private attomey every six months. I have spoken
     with the chair of the Pro Bono Committee of the Grand Rapids Bar Association and he
     believes such a system would be beneficial, but not too cumbersome.

     There were also a couple of questions or corrections that I had on page two, in the first
     full paragraph, it references the program as "LSNC." In the last full paragraph on that
     page the report indicates that a staff attomey works at the "State Bar" Legal Assistance
     Center in Grand Rapids. Actually, the Legal Assistance Center is a project of the
     Grand Rapids Bar Association.


A U n i Way Agency             Area Agency on Aging, Regions IIIA, IV, VIII, XIV
                                        Kent County Senior Millage
                                                     1-1
Leonard J. Koczur
Legal Services Corporation
Office of Inspector General
August 17,2004
Page Two


Finally, on page three, in the Planning subsection the report notes that the VLSP
director was interviewed. I am not aware of what this acronym stands for and would
appreciate it if you could clear that up for me.

I thank you and your team for their insights, cooperation and professionalism in this
matter. If you have any questions, please feel free to contact me.

Yours truly,


   u
Michael C. Chielens
Executive Director
IrcWto kocrurB.17.W
                                                  APPENDIX II

                         OIG On-Site Audit Team


David Gellman (Auditor-in-Charge)

Abel Ortunio
